HHS/OIG, Audit -"Review of PacifiCare of Colorado's Modifications To Its 2004 Adjusted
Community Rate Proposal Under The Medicare Prescription Drug, Improvement, and Modernization
Act,"(A-09-05-00077)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of PacifiCare of Colorado's Modifications
To Its 2004 Adjusted Community Rate Proposal Under The Medicare Prescription Drug, Improvement,
and  Modernization Act," (A-09-05-00077)
March 20, 2006
Complete
Text of Report is available in PDF format (829 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether PacifiCare of Colorado's (PacifiCare) use of its
Medicare Prescription Drug, Improvement, and Modernization Act (MMA) payment increase was
adequately supported and allowable pursuant to the MMA.  Of the $5,148,375 capitation
payment increase in PacifiCare's revised proposals, $5,013,375 was adequately supported and
allowable pursuant to the MMA.  The remaining $135,000 was adequately supported; however,
PacifiCare did not use these funds to enhance access to providers under plan 002 as stated
in its revised proposal.  Instead, PacifiCare used the funds to enhance access to providers
by opening a new medical facility serving beneficiaries enrolled in plans 006 and 007.  Since
plan 002 enrollees did not benefit from the $135,000 of increased capitation payments, PacifiCare's
use of the payments was unallowable.  We recommended that PacifiCare refund to the Federal
Government $135,000, representing the portion of the MMA payment increase that was not used
pursuant to the MMA.  PacifiCare generally agreed with the facts presented in the report
but disagreed with the finding and recommendation related to the use of the $135,000.